HHS/OIG-Audit--"Audit of the Reporting and Collecting Penalties on States, (A-12-93-00045)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Reporting and Collecting of Penalties on States,"
(A-12-93-00045)
July 13, 1994
Complete
Text of Report is available in PDF format (768 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report summarizes the results of our review of the Office
of Child Support Enforcement (OCSE) Reporting and Collecting Penalties on States.
Federal regulations provide for imposing a penalty when a State is found not
to be in substantial compliance with requirements of title IV-D of the Social
Security Act (Public Law 98-378). We found the ACF oversight activities relating
to penalties imposed on States failing OCSE audits were adequately performed.
However, further improvements can be made in the following areas: assessing
penalties, recording accounts receivable and assessing and collecting interest.